No. 20A64
IN THE SUPREME COURT OF THE UNITED STATES

JILL SWENSON, MELODY MCCURTIS, MARIA NELSON, BLACK LEADERS
ORGANIZING FOR COMMUNITIES, AND DISABILITY RIGHTS WISCONSIN,
Applicants,
v.
MARGE BOSTELMANN, JULIE M. GLANCEY, ANN S. JACOBS, DEAN
KNUDSON, ROBERT F. SPINDELL, JR., and MARK L. THOMSEN,
Commissioners of the Wisconsin Elections Commission; MEAGAN WOLFE,
Administrator of the Wisconsin Elections Commission,
Respondents,
WISCONSIN LEGISLATURE, REPUBLICAN NATIONAL COMMITTEE,
and REPUBLICAN PARTY OF WISCONSIN,
Intervenors.
PROOF OF SERVICE
I, Anton Metlitsky, a member of the bar of this Court, hereby certify that, on
this 17th day of October 2020, all parties required by the Rules of this Court to be
served have been served. One copy of the Reply in Support of Application to Vacate
Stay in the above-captioned case was deposited with FedEx, a third-party courier, for
delivery to counsel on the attached service list. I further certify that an electronic
copy of the brief has been emailed to counsel at the email addresses included on the
attached service list.

s/ Anton Metlitsky__________
Anton Metlitsky

No. 20A64
Misha Tseytlin
TROUTMAN PEPPER HAMILTON
SANDERS LLP
Suite 3900
227 W. Monroe Street
Chicago, IL 60606
misha.tseytlin@troutman.com

Dixon Gahnz
Daniel P. Bach
Daniel Spector Lenz
Terrence Polich
LAWTON & CATES SC
Suite 201
345 W. Washington Avenue
Madison, WI 53703
dgahnz@lawtoncates.com

Counsel of Record for Respondent
Wisconsin State Legislature

Counsel for Marge Bostelmann, Julie M.
Glancey, Ann S. Jacobs, Dean Knudson,
Robert F. Spindell, Jr., Mark L.
Thomsen, and Meaghan Wolfe

Jay Alan Urban
URBAN & TAYLOR, S.C.
4701 N. Port Washington Road
Milwaukee, WI 53212
jurban@wisconsininjury.com

Patrick Strawbridge
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South, PMB, #706
Boston, MA 02109
patrick@consovoymccarthy.com

Counsel of Record for Respondents
Chrystal Edwards, et al.
No. 20A65
Jon Sherman
FAIR ELECTIONS CENTER
1825 K. Street N.W.
Washington, DC 20006
jsherman@fairelectionscenter.org

Jeffrey M. Harris
CONSOVOY MCCARTHY PLLC
Suite 700
1600 Wilson Boulevard
Arlington, VA 22209
jeff@consovoymccarthy.com

Counsel of Record for Applicants

Counsel for the Republican National
Committee and the Republican Party of
Wisconsin

No. 20A66
John M. Devaney
PERKINS COIE LLP
700 Thirteenth Street, N.W.
Suite 800 Washington, D.C. 20005
JDevaney@perkinscoie.com
Counsel of Record for Applicants

2

